No

a)<^

/V THE SUPREME COURT OF THE UNITED STATES
Raoul Lafond
Plaintiff-Petitioner, Pro Se

n -v
; i; VJ:

1 ^

Vs.
RICHARD S.GLASER JR., CHIEF A.U.S.A.
WALTER C.HOLTON JR., U.S. ATTORNEY
CLIFTON THOMAS BARRETT, A.U.S.A.
LYNNE P.KLAUER, A.U.S.A.
Respondent's

filed
AUG 2 6 2021

ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT

PETITON FOR CERTIORARI
Raoul Lafond Reg: NO. 18624-057
NORTH LAKE CORRECTIONAL
FACILITY
POST OFFICE BOX 1500
BALDWIN MI. 49304
PETITION FOR CERTIORARI

QUESTION PRESENTED FOR REVIEW
1. The supreme court In NEITZKE. Recognized that: A complaint is Frivolous if it is, without
Arguable Merit either In Law or In Fact.. Doesnt Theories of what the plaintiff Claimed have
to be Undisputably Meritless In Order for the Court's Below to determined allegation from
plaintiffs complaint are Frivolous?
2. Since Amendment V, the Constitution of the United States required " All Felonies be Tried
upon Indictment by a Grand Jury. " Isn't It a Violation," Under Fifth Amendment right of the
plaintiff, for Any United States Attorney, to act before the court's Using an Indictment
knowing to be falsify to prosecute the Plaintiff?

;

LIST OF PARTIES IN COURT BELOW
Raoul Lafond, Plaintiff-Petitioner Pro Se
RICHARD S.GLASER JR., CHIEF A.U.S.A.
WALTER C. HOLTON JR., U.S. Attorney
CLIFTON THOMAS BARRETT, A.U.S.A.
LYNNE P. KLAUER, A.U.S.A.

filed
AUG 2 6 202!

CORPORA TE DISCL OSURE STA TEMENT
Raoul Lafond, Plaintiff-Petitioner Hereinafter Plaintiffs submitted this list of disclosure
statement, listing Parties not appear in the Caption on the cover page in this petition for
Certiorari, as required this court by form No. S Ct. 29.1.
SANDRA J.HAIRSTON
ACTING U.S. ATTORNEY

LIST OF CASES DIRECTLY RELATED TO THIS CASE
1. United States District Court for the Middle District Greenboro
North Carolina.
2. 6:96-CR-212-l
3. United States of America Vs. Raoul Lafond
4. Date of entry ofjudgment April 2,1998

ii

TABLE OF CONTENTS
Page
No.
Questions Presented For
Review..........................

i

List of Parties in Court
Below..........................

ii

Coporate Disclosure
Statement................

ii

Table of Authorities
Cited.......................

IV

Citations of Opinions And Orders in
case..................................................

.v

Jurisdiction Statement.

1

Statutes Involved,

1

Statement of the Case.

1

Summary of Facts

2

The District Court
Decision...............

2

The Court of Appeals
Decision....................

3

Existence of Jurisdiction
in Courts Below............

3

Argument For Allowance
Of Writ...........................

3

Conclusion.

6

INDEX TO APPENDICES
APPENDIX A

3

APPENDIX B

.... 3

iii

TABLE OF AUTHORITIES CITED
Page
No
Ashcroft v. Iqbal
556 U.S. 662 678 129 S. Ct.1937 L. Ed 818 (2009) U.S. LEXIS 3472
Bivens v. Six Unknown Named Federal Agents of Bureau
Narcortics, 403 U.S.388 91 S.Ct. 1999 29 L. Ed 2d
619(1971)......................................................... ...............

.4,5

1,3,4,5,6

Bell v.Hood
90 L. Ed 939, 327 U.S. 678

5

Correctional Services Corporation
v. Malesko, 534 U.S. 61, 151 L.Ed 2d 456 122 S.Ct. 515

.4

Davis v. Passman
442 U.S.228, 29 S.Ct.2264 60 L.Ed.2d 846 (1976),

,4

Neitzke v. williams

490 U S. 319 325 109 S.Ct. 1827 104 L.Ed 2d 338 (1989)

i,3

Olmstead v. United States
277 U.S. 438, 471 72 L.Ed. 944 952-53 48 S.Ct.564

5

STATUTES AND RULES
Judicial Code Section 242 (18 U.S.C. § 242

1

Judicial Code Section 1254(1) (28 U.S.C. § 1254 (1)).

1

Judicial Code Section 1281 (28 U.S.C. § 1281

3

Judicial Code Section 1331, 1343 and 1391(a)
(28 U.S.C. § § § 1331 1343 and 1341 (a))......

.3

Judicial Code Section 1915 A (b) (28 U.S.C. § 1915

3

Judicial Code Section 1983 (42 U.S.C. § 1983).

5

Supreme Court rules 16.1.(Sup. Ct. R.
16.1)....................................................

.7
ii

Supreme Court Rule 29.1 (Sup.Ct.R. 29.1

iv

CITATIONS OF OPINIONS AND ORDERS
INCASE
The Opinion and Judgment of the United States Court of Appeals for the Fourth Circuit, have not yet
seen reported and believe its because of unpublished Opinion of the Fourth Circuit, therefore can not be
reprint for the use of Appendix's.

The Fourth Circuit's Opinion affirms Judgment of The United States District Court For the Middle
District of North Carolina, Greensboro Division, and the decision was based on Unpublish Opinion,
and was not found reported yet. Therefore, could not be reprint for the Use of Appendix's.

v

JURISDICTIONAL STATEMEMT
The judgment of the United States Court of appeals for the fourth circuit was entered On June 28, 2021.
There's no pending order regarding a panel rehearing or rehearing en Bank because the fourth circuit court
of appeals suspend oral argument and determined that any argument and legal contentions presented in this
case thats before them, would not aid the decisional process, for such reason the plaintiff did not bother
filing any rehearing brief.
This petition is filed within 90 days of the date, so that this court has jurisdiction to review the judgment of
the fourth circuit on petition for certiorari rests by virtue of section 1254(1) of the judicial code (28 U.S.C.
Section 1254(1)).

STATUTES INVOLVED
The relevant statutory provisions are deprivation of rights under color of law as amended, U.S. Code
title 18 part 1 chapter 13 section 242. the respondent's submitted indictment charging the plaintiff in the
court, in Illegal manner that have no parallel to laws and constitution of the United States.

STATEMENT OF THE CASE
According to the use of false indictment against the plaintiff during criminal proceedings, On June 18,
2020 the plaintiff filed a civil action complaint pursuant BIVENS, and this is after learning the respondents,
from therein defendants, deprived the plaintiff of liberty and property without due process of law of the
United States, while acting under color of federal law and color of authority, in the action complaint the
plaintiff seeks $35,000,000.00 million dollars in damages from each individual defendants and demanded a
jury trial.(Doc.# 1).
On January 14, 2021, upon considering the magistrate judge recommendation, the district court agrees that
the action complaint before them against the four defendant's are "Frivolous" and failed to state its claim.
Therefore, accepted the magistrate judge judge recommendation in full and dismissed the action complaint
against the four defendants.(Doc J 8)
On February 1st 2021, notice of appeal was giving to United States middle district court, Greensboro North
Carolina, on February 2, 202 T plaintiff filed appeal brief in the fourth circuit court of appeals, thereafter
received appeal number of 21-6177. On June 29, 2021, the fourth circuit Entered Unpublish Opinion and

1

affirmed judgment of U.S. middle district court Greensboro North Carolina.

SUMMARY OF FACTS
On November 25, 1996 a superseding indictment under number 6:96CR212-1, was filed in United
States middle district court Greensboro North Carolina charging the plaintiff with multiple counts of
felonies as follow:
Count One, conspiracy to distribute 50 grams of cocaine base crack.
Count Two, using a firearms in relation to a drug trafficking crime and
Count Three through Thirteen, Monetaring money laundering.
After entered a plea of not guilty, however, the plaintiff attended a second trial where the juries found the
plaintiff guilty and thereafter was sentenced in count One, to four hundred months imprisonment and in
count Two, 60 months imprisonment to run consecutively to count (One) and in count Three through
thirteen, 400 hundred months imprisonment to run concurrently to count One.
After Twenty six years while still incarcerated, with Nine and a half years left until projected release,
January 21, 2030, the plaintiff learned that he have been suffering loss of liberty as a result of the indictment
charges that was found to be "fraudulently manufactured" intentionally, while the fifth Amendment
(Amendment v) to the United States constitutiion have already addressed criminal procedure applies to
every level of the government, including the federal prosecutors in regards to U.S. Citizen or resident of the
U.S., the protections of the fifth Amendment through the due process clause. U.S.A. Const. Amend. 5.

THE DISTRICT COURT
DECISION
The plaintiff commenced this action by filling complaint against the four Versus defendants, On June 18,
2020. the district court January 14, 2021 decision that the complaint is "frivolous" or failed to state its
claim, are Irrelevant to the breaking point, because Reports and Opinion of Forensic Expert were used in the
complaint brief has foundation of the claim, at which actually reveal in detail who's the petitte forger that
fraudulently manufactured the indictment charging the plaintiff. How frivolous can such expert evidence be,
when it is the expert evidence that lead the entire allegation of malicious misconduct of the defendants. How
did the plaintiff failed to state his claim like the court below determined when it is the expert evidence could
only title the plaintiff claim has a deprivation of liberty. The Opinion of the United States district court
2 :

for the middle district of North Carolina appears at (APPENDIX (A)).

THE COURT OF APPEALS
DECISION.
On June 29, 2021 by unpublish opinion the fourth circuit court of appeals affirmed the district court
order dismissing plaintiff complaint the district court dismissed under 28 U.S.C. Section 1915 A(b). this
opinion holds conflict to both, plaintiffs right to constitution of the United States and principles established
by this court in BIVENS. The report and opinion of the forensic expert that generally lead this entire claim
against the defendants have been disregarded has if, it is legal to tried plaintiffs for felony charges on false
indictment. The opinion of the fourth circuit court of appeals appears at (APPENDIX (B)).

EXISTENCE OF JURISDICTION
IN COURTS BELOW
This action was commenced by plaintiffs in the United States district court for the middle district of
Greensboro North Carolina because the court has jurisdiction over the matter pursuant to 28 U.S.C. section
1391 (a), and sections 1331 and 1343, of the judicial code (28 U.S.C. section 1331,1343).
The final judgment of the district court was entered on January 14, 2021. timely appeals were filed to the
United States court of appeals for the fourth circuit, which had jurisdiction over the matter under 28 U.S.C.
section 1281.

ARGUMENT FOR ALLOWANCE
OF WRIT
The decision below establish attitudinal and Irrational departures from well understood and long standing
Fifth Amendment law of the United States that requires felonies be tried only upon indictment by a grand
jury. U.S.A. Const. Amend. 5.. On the same criteria, if not Ignored opinion of the forensic expert, it would
not been difficult the fourth circuit court of appeals to find opinion of the forensic expert, are material facts
that verify proof of causation between the officials conduct and the alleged injury. The court's below
dismissed the action complaint has if the court below are not "oblige" to construe pro-se pleadings (liberally)
and Interpret them to raise the strongest claims that the action complaint suggest, this court in NEITZKE,
recognized that "FRIVOLITY" dismissals should only be ordered when legal theories are indisputably
meritless. NEITZKE V. WILLIAMS, 490 u.s. 319 325 109 S.Ct. 1827,104 L.Ed 2 d 338 (1989)
3

THE FOURTH CIRCUIT'S UNPUBLISH DECISION IS CONTRARY TO PRINCIPLES ESTABLISHED
BY THIS COURT
Whether the defendant's acted under color of federal authority gave rise to a federal cause of actions, for
damages consequent upon their misconduct, the fourth circuit unpublish opinion is pretty much in conflict
with plaintiffs right's to fifth Amendment constitutional law of the United States, and should be delt with as
a matter of law and principles established by this court, BIVENS V. SIX UNKNOWN NAMED
FEDERAL AGENTS OF BUREAU NACORTICS, 403 U.S. 389 91 S.Ct. 1995 29 L. Ed 2d 619
(1971), CORRECTIONAL SERVICES CORPS V. MALESKO, 534 U.S. 61 71 12 S.Ct. 515 (2001);
DAVIS v. PASSMAN, 442 U.S. 228, 29 S. Ct. 2264 60 L. Ed. 2d 846 (1976), ASHCROFT V. IQBAL,
556 U.S. 662 678 129 S.Ct. 1937 L. Ed. 2d 818 (2009). The report and opinion of the forensic expert are
evidence that verified the truth in detail, about the fictitious signature founded above the line entitled
foreman in the indictment charging the plaintiff, is the hand written signatures of chief assistant United
States attorney RICHARD S. GLASER JR., Who, during the time relevant to filing of the indictment
charging the plaintiff, were employed by U.S. attorney office, for the middle district of North Carolina.

Whether the fifth Amendment command's "No person shall be held to answer for a capital or otherwise
infamous crime unless on presentment or indictment of a grand jury" the defendant's, did act upon
plaintiffs before the lower court's, without legal authority, the defendant intentionally submitted an
indictment charging the plaintiff into the court, in Illegal manner that have NO parallel to laws and
constitution of the United States, there can be no doubt that the defendant's routine and calculated
misconduct was or is willful, a violation occur against plaintiff, that still is suffering loss's of liberty as a
result of the defendant's misconduct, there is NO reasons or are No reasons in law, facts or equity to
continue depriving plaintiffs constitutionally required fifth Amandment right to the further loss of anymore
rights, particularly plaintiff's precious, and priceless liberty rights. Twenty Six years thus far of
imprisonment are "Monstrously" an criminal amount of time to mistreated the plaintiff under the color of
law; to stripped the plaintiff of all protected liberty interest, to sit in deficiance of both, the admonishment of
the supreme court and the constitution of the United States.
In the eye's of the law, the defendant's had known this all alone, that the plaintiff, is being Illegaly forced
4

to spent three and a half decade's of imprisonment for felony charges that was not approved by a grand
jury. U.S.A. Const. Amend. 5.. In so doing, the defendant's Ignored the facts of wrongfully used authority
under the color of law, however, does not disappear like a magic trick, because an agent acting albeit
unconstitutionally in the name of the United States possesses a far greater capacity for harm than an
individual trespasser exercising no authority other than his own. 403 U.S. at 392. It has been the rules from
the beginning "where federally protected rights have been invaded, then the court's will be alert to adjust
their remedies so as to grant the necessary relief." BELL V. HOOD, 327 U.S., at 684. In this matter at
hand when plaintiff's presented reports and opinions of the forensic Expert, it was to holds together the
factual details, can imagine the court's not ignored, would have allowed the courts to draw reasonable
inference that all four defendant's are liable for their misconduct alleged. ASHCROFT V. IQBAL, 556 U.S.
662, 678 129 S.Ct. 1937 L.Ed.2d 818 (2009). it is well settled that where legal rights have been invaded,
and a federal statute provides for a general rifgt to sue for such invasion, federal court’s may use any
available remedy to make good the wrong done. BELL V. HOOD, 90 L.Ed. at 944.

It is obvious that the plaintiff deprivation of liberty is an apparent and disturbing "Grievous Loss" and
should be delt with as a matter of well settled law. In BIVENS SUPRA, this court recognized that
claimant's may assert cause of action for damages caused by federal agents because an individual federal
agent may be found liable for action "In Excess of the authority deligated to him. "403 U.S. at 397. Lacking
any rational or principled basic of support, the decision below are clearly in conflict with the fifth
Amendment constitutional law of the United States and contrary to this court ruling in BIVENS, the same
case in which 40 years ago this court created a counterpart to 42 U.S.C. section 1983, and authorized suits
against federal employees in their individual capacities. BIVENS, from its inception has been based on the
deterrence of individual officers who commit unconstitutional acts by means the defendant's in this matter
cannot be allowed to profit from their own Illegal acts. OLMSTEAD V. UNITED STATES, 227 U.S.
438, 471, 72 L.Ed. 944, 952-53, 48 S.Ct. 564.

5

CONCLUSION
The decision below demonstrates so compelling a need for exercise of the court's power of supervision
that it should be summarily reversed, under S. Ct. R. 16, On the issues presented by this petition. Each day
that the decision of the lower court is allowed to stand, its strange logic and egregious misstaments of the
law will predictable mischief the due process clause of the fifth Amendment constitution of the United
States and principles established by this court. At the very least, this petition should be granted, In order to
address the Fourth Circuit departure from constitutional law of the United States and long accepted
BIVENS, rulings of this supreme court of the United States.

The Petition For Writ Of Certiorari Should Be Granted.

RESPECTFULLY SUBMITTED

Signature

Date

6

